IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM

SCOTTY RAY GARDNER
VS.

PETITIONER
NO. ____________

STATE OF ARKANSAS

RESPONDENT

MOTION TO PROCEED IN FORMA PAUPERIS
Scotty Ray Gardner, by and through his attorney, Teri L. Chambers, for his
Motion to Proceed In Forma Pauperis, states:
1.

Mr. Gardner desires to petition this Court for a writ of certiorari to

review the judgment of the Arkansas Supreme Court affirming his conviction and
sentence of death.
2.

Mr. Gardner is indigent.

He was represented at trial and on direct

appeal by appointed counsel, and is currently under a sentence of death. He is
financially unable to retain counsel to pursue the petition in the Court.
3. Mr. Gardner’s affidavit to proceed in forma pauperis is attached.
WHEREFORE, Mr. Gardner prays that he be permitted to proceed in forma
pauperis.

SCOTTY RAY GARDNER

/s/ Teri L. Chambers
Teri L. Chambers
Arkansas Public Defender Commission
101 East Capitol Avenue, Suite 201
Little Rock, AR 72201
(501) 682-9070
(501) 682-9073 (facsimile)
teri.chambers@arkansas.gov
ATTORNEY FOR PETITIONER,
Scotty Ray Gardner

